PROOF OF SERVICE

I hereby certify that on May 21, 2021,1 served a copy of the Petition for Writ
of Certiorari in Wylmina Hettinga v. United States of America on all parties
required to be served by mailing a copy, with postage prepaid, to:
-

United States of America:

Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, DC 20530-0001 and
Thomas J. Clark, Geoffrey Kimas, Joan Oppenheimer, US Department of Justice, P
O Box 502, Washington, DC 20044, 202-514-8456
Chicago Title Company and Jeanie O’Connor
Josette Darlese Johnson, Fidelity National Law Group, 1550 Parkside Drive, Ste
300, Walnut Creek, CA 94596, 925-280-3368
Scott Raley, 6091 Paseo Pueblo Drive, San Jose, CA 95120
-

Walter P Hammon and Travis I Krepelka

Ellyn Nesbit and Bruce MacLeod, Willoughby, Stuart & Bening, 50 W San
Fernando Street, San Jose, CA 95113, 408-289-1972
-

Pamela Kennedy, 6214 Civic Terrace Avenue, Apt B, Newark, CA 94560

-

Timothy Loumena, 6276 El Paseo Drive, San Jose, CA 95120

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.

Executed on:

Wylmina Hettinga, Petitioner

m
M6Ji
NOTARY MUC. OTKWOMJJMOB

j5/z 1/z^z.i

received
may 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT us

